No. ___________

In the Supreme Court of the United States

RICKY ALLEN FACKRELL, PETITIONER,
V.

UNITED STATES OF AMERICA, RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
CERTIFICATE OF SERVICE
The undersigned, an attorney and a member of the Bar of this Court, certifies that under Supreme Court Rule 29.3, she served the within Motion for
Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari on
Counsel for the United States, and for other parties required to be served, by
enclosing a copy of each in an envelope and delivering it to FedEx, a thirdparty commercial carrier, on October 14, 2021, for delivery within three calendar days to their post office addresses:
Brian H. Fletcher
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue NW, Room 5614
Washington, D.C. 20530-0001
(202) 514-2217
and depositing same in a Federal Express box at San Antonio, Texas, on October 14, 2021. Counsel further certifies that all parties required to be served
have been served.

s/ Judy Fulmer Madewell
JUDY FULMER MADEWELL
First Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

